JULY 26, 2012
  AUDIT REPORT




                                                      OFFICE OF AUDITS




            AUDIT OF NASA GRANTS
         AWARDED TO THE PHILADELPHIA
 COLLEGE OPPORTUNITY RESOURCES FOR EDUCATION




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-12-018 (ASSIGNMENT NO. A-12-004-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

C.F.R.       Code of Federal Regulations
CORE         College Opportunity Resources for Education
GIC          Grant Information Circular
NASA         National Aeronautics and Space Administration
NPR          NASA Procedural Requirements
NSSC         NASA Shared Services Center
OIG          Office of Inspector General
OMB          Office of Management and Budget
PMS          Payment Management System


                                                             REPORT NO. IG-12-018
JULY 26, 2012




                                                                                  OVERVIEW

       AUDIT OF NASA GRANTS AWARDED TO THE PHILADELPHIA
         COLLEGE OPPORTUNITY RESOURCES FOR EDUCATION

                                                                                    The Issue

  In September 2011, the National Aeronautics and Space Administration (NASA) Office
  of Inspector General (OIG) reported that NASA did not have an adequate system of
  controls in place to ensure proper administration and management of its grant program
  and that as a result some grant funds were not being used for their intended purposes. 1
  As a follow-on to our September 2011 report, we are conducting a series of audits
  examining specific NASA grants. In this report, we present the results of our review of
  two $1 million grants NASA made to the Philadelphia College Opportunity Resources for
  Education (CORE) in 2009 and 2010.

  Founded in 2003, CORE is a not-for-profit organization that provides college
  scholarships to high school seniors who reside and attend high school in Philadelphia,
  Pennsylvania; plan to attend a Pennsylvania college or university full time; and have a
  financial need. NASA awarded CORE a $1 million grant on September 27, 2009, and a
  second grant, also for $1 million, on August 5, 2010. In addition to NASA, CORE
  receives grants from other Federal agencies and other sources. As of September 2011,
  CORE had awarded $28.3 million in college scholarships to 23,666 students.

  The objective of this audit was to determine whether CORE used NASA’s grant funds for
  their intended purpose and whether the costs associated with the grants were allowable,
  reasonable, and in accordance with applicable laws, regulations, guidelines, and the terms
  and conditions of the grants. Specifically, we reviewed CORE’s (1) program
  performance and accomplishments, (2) accounting and internal control environment,
  (3) budget management and control, and (4) reporting.

                                                                                        Results

  We found that CORE fulfilled the stated goals and objectives of the grants by awarding
  approximately $1.8 million from NASA funds in scholarships to eligible high school
  students. However, we identified a number of deficiencies in CORE’s accounting and
  internal control environment, as well as areas where NASA can improve its policies and
  procedures over grant management. Specifically, CORE failed to obtain a required audit
  of its operations for 2010, inaccurately recorded and reported certain financial
  1
      NASA OIG, “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011).



REPORT NO. IG-12-018
                                                                                       OVERVIEW



     information, charged $60,511 in unallocable or unallowable expenditures, and failed to
     maintain appropriate time and attendance documentation to support personnel charges
     totaling $156,409. We also found that CORE failed to file or was late in filing required
     financial and inventory reports. In addition, CORE inappropriately displayed NASA’s
     name and insignia on its website.

     Management Action

     To remedy the deficiencies identified, we recommended that the Assistant Administrator
     for Procurement strengthen NASA’s policies and procedures to ensure that grantees
     obtain required audits, update the NASA Grant and Cooperative Agreement Handbook
     (Grant Handbook) to reflect the current practice of the NASA Shared Services Center
     (NSSC) regarding inventory reports, and work with the Associate Administrator for
     Communications to clearly delineate in the Grant Handbook and award documentation
     the requirements for use of NASA’s logo and insignia. We also recommended that the
     NSSC Executive Director and the Associate Administrator for Education work together
     to ensure that CORE remedies the $156,409 in unsupported costs and $60,511 in
     unallocable or unallowable expenditures identified, verify that CORE did not charge
     expenditures to both NASA and Department of Education grants, and ensure that CORE
     submits all required reports for the 2009 and 2010 grants. Finally, we recommended that
     prior to awarding any future grants to CORE the Executive Director and the Associate
     Administrator ensure that CORE has strengthened and formally documented its internal
     controls to comply with NASA and Office of Management and Budget (OMB)
     requirements.

     In response, the Assistant Administrator stated that NSSC has already taken corrective
     action that addresses our recommendation to ensure that grantees obtain required audits.
     In addition, the Assistant Administrator stated that he advised NSSC to rescind its
     memorandum regarding the submission of final property inventory reports and to work
     with the Headquarters Office of Communications to develop formal written procedures
     for approving the use of the NASA seal, insignia, logo, program identifiers, or flags. The
     Executive Director stated that NSSC would request that the Office of Naval Research
     conduct incurred cost audits for unsupported, unallocable, or unallowable expenditures
     and verify that CORE did not charge certain expenditures to both NASA and Department
     of Education grants. Additionally, the Executive Director stated that NSSC would notify
     CORE by July 31, 2012, to revise its internal controls to address OMB and Grant
     Handbook Financial Management requirements and will review the revisions for
     compliance before awarding any new grants to the organization. Finally, NSSC will
     request that CORE submit final inventory reports by July 31, 2012.

     We consider the Agency’s proposed actions responsive to our recommendations.
     Accordingly, we have resolved the recommendations and will close them upon receipt
     and verification of supporting documentation.




ii                                                                         REPORT NO. IG-12-018
JULY 26, 2012




                                                       CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 2

  RESULTS
      Findings and Recommendations__________________________ 3

  APPENDIX A
      Scope and Methodology _______________________________ 19
      Review of Internal Controls ____________________________ 22
      Prior Coverage ______________________________________ 22

  APPENDIX B
      Table of Questioned Costs _____________________________ 24

  APPENDIX C
      Agency Comments ___________________________________ 25

  APPENDIX D
      Grantee Comments __________________________________ 29

  APPENDIX E
      Report Distribution ___________________________________ 40




REPORT NO. IG-12-018
JULY 26, 2012




                                                                                   INTRODUCTION


Background

  The National Aeronautics and Space Administration (NASA) faces the ongoing challenge
  of ensuring that the approximately $500 million in grants it awards annually are
  administered appropriately and that grantees are accomplishing stated objectives. In
  September 2011, the NASA Office of Inspector General (OIG) reported that NASA did
  not have an adequate system of controls in place to ensure proper administration and
  management of its grant program and that as a result some grant funds were not being
  used for their intended purposes. 2

  As a follow-on to our September 2011 report, we are conducting a series of audits
  examining particular NASA grants. In this report, we present the results of our review of
  two $1 million grants NASA made to the Philadelphia College Opportunity Resources for
  Education (CORE) in 2009 and 2010. 3

                             Table 1. Philadelphia CORE Grants Reviewed

         Grant Award               Start Date              End Date              Award Amount

        NNX09AQ33G                 9/27/2009              9/30/2010               $1,000,000
        NNX10AH59G                 8/5/2010               9/30/2011                 1,000,000
                                                                  Total           $2,000,000
  Source: NASA grant award files


  Founded in 2003, CORE is a not-for-profit organization that provides college
  scholarships to high school seniors who reside and attend high school in Philadelphia,
  Pennsylvania; plan to attend a Pennsylvania college or university full time; and have a
  financial need. In addition to NASA, CORE also receives grants from other Federal
  agencies and other sources. As of September 2011, CORE had awarded $28.3 million in
  college scholarships to 23,666 students.

  The NASA Grant and Cooperative Agreement Handbook (Grant Handbook) contains the
  policies and procedures NASA procurement and technical officers and grantees must

  2
      NASA OIG, “Audit of NASA’s Grant Administration and Management” (IG-11-026, September 12,
      2011).
  3
      Both grants were funded as a result of congressional earmarks. We judgmentally selected these grants for
      review based on dollar value and other factors.



REPORT NO. IG-12-018                                                                                             1
                                                                                                    INTRODUCTION



    follow in the pre-award, post-award, and closeout phases of grant management. 4 The
    Grant Handbook serves as a reference manual and assists grantees in meeting their
    fiduciary responsibility to safeguard grant funds and ensure they are used appropriately
    and consistently with the terms and conditions of the award. By accepting NASA
    awards, CORE agreed to comply with the financial and administrative requirements set
    forth in the Grant Handbook.


Objectives

    The overall objective of this audit was to determine whether CORE used NASA funds as
    intended and whether associated expenditures were allowable, reasonable, and in
    accordance with applicable laws, regulations, guidelines, and the terms and conditions of
    the grants. Specifically, we reviewed CORE’s (1) program performance and
    accomplishments, (2) accounting and internal control environment, (3) budget
    management and control, and (4) reporting.

    To accomplish our audit, we conducted interviews with representatives from NASA
    Headquarters Office of Procurement, NASA grant and technical officers, and CORE’s
    Executive Officer. 5 We also visited CORE’s office to document accounting,
    procurement, and project management processes and internal controls. Finally, we
    reviewed laws, regulations, and documentation pertinent to our audit. Additional details
    of the audit’s scope and methodology, our review of internal controls, and prior audit
    coverage are in Appendix A.




    4
        NASA Procedural Requirements (NPR) 5800.1, “Grant and Cooperative Agreement Handbook,” is
        codified in the Code of Federal Regulations (C.F.R.) at Part 1260. NASA issues Grant Information
        Circulars to disseminate guidance internally and issues Grant Notices to publicize regulatory changes not
        yet incorporated in the current version of the Grant Handbook.
    5
        The grant officers for the grants reviewed were located at NSSC and the technical officer for both grants
        was located at the Ames Research Center.



2                                                                                          REPORT NO. IG-12-018
RESULTS




                                       FINDINGS AND RECOMMENDATIONS

          We determined that CORE adequately fulfilled the stated goals and objectives of the
          two grants we reviewed. Specifically, CORE awarded approximately $1.8 million in
          scholarships to eligible high school students using NASA funds. However, we
          identified a number of deficiencies in CORE’s accounting and internal control
          environment. Specifically, CORE failed to obtain a required audit of its operations
          for 2010, inaccurately recorded and reported certain financial information, failed to
          maintain appropriate time and attendance records to support personnel charges
          totaling $156,409 and charged $60,511 in unallocable or unallowable expenditures.
          We also found that CORE failed to file or was late in filing required financial and
          inventory reports to NASA. In addition, CORE inappropriately displayed NASA’s
          name and insignia on its website. Finally, we identified areas where NASA can
          improve its policies and procedures over grant management.


Program Performance and Accomplishments

  The overarching goal of the two NASA CORE grants was to provide scholarships to
  needy high school seniors in Philadelphia, Pennsylvania. To determine whether CORE
  met this goal, we interviewed CORE’s Executive Director and reviewed supporting
  documentation.

  We confirmed that CORE funded approximately $1.8 million in scholarships with NASA
  grant funds over the 2-year period covered by the grants and spent the remaining
  $200,000 on administrative expenses associated with the program. We examined the
  administrative expenditures and, with the exceptions discussed below, determined they
  were reasonable.


Accounting and Internal Controls

  According to the Grant Handbook, grant recipients are required to establish and maintain
  accounting and internal control systems to account for the funds awarded to them. To
  test the adequacy of CORE’s systems, we requested copies of CORE’s required outside
  audit (“Single Audit”) report, interviewed CORE’s Executive Director, and reviewed
  CORE’s accounting activities.

  We found that CORE had knowledgeable and experienced staff responsible for the areas
  we reviewed and that staff and management openly communicated regarding CORE’s
  mission and goals. We also found that financial duties were reasonably segregated
  between CORE’s staff, bookkeeper, and Board of Directors. However, we noted that
  CORE had not formally documented many of its operating procedures.


REPORT NO. IG-12-018                                                                          3
                                                                                                           RESULTS



    Single Audit. According to the Office of Management and Budget (OMB) Circular
    A-133, “Audits of States, Local Governments, and Non-Profit Organizations,” June 26,
    2007, any grantee that expends more than $500,000 in Federal funds in any given year
    must obtain an outside audit of its operations. These Single Audits review the grantee’s
    financial statements, internal controls, and compliance with laws and regulations and may
    identify questioned costs and make recommendations for corrective action. The Circular
    requires grantees to submit Single Audit reports to the Federal Audit Clearinghouse
    within 30 days of completion or 9 months after the end of the audit period, whichever is
    earlier. 6

    In 2009, CORE did not expend more than $500,000 in Federal funds, so no Single Audit
    was required. In 2010, CORE expended $1.7 million in Federal funds, triggering the
    Single Audit requirement. However, CORE did not obtain a Single Audit for 2010.
    According to the Executive Director, she was not aware of the requirement to obtain a
    Single Audit. After we brought the matter to her attention, she engaged an independent
    public accounting firm to perform the audit. 7

    Financial Management. According to the Grant Handbook, grantees’ financial
    management systems should provide accurate, current, and complete disclosure of
    financial results and records that adequately identify the source and application of funds
    used for federally sponsored activities. Grantees should also have effective controls over
    and accountability for all funds, property, and other assets and adequately safeguard and
    ensure such assets are used solely for authorized purposes. Additionally, grantees’
    accounting records should be supported by source documentation.

    To record its financial operations, CORE uses a commercial off-the-shelf software
    package that tracks expenditures and revenues by grant program. We reviewed 14
    personnel transactions CORE had charged to the NASA grants – 5 from 2009 and 9 from
    2010 – and found the amounts recorded in CORE’s general ledger were not consistent
    with the supporting documentation. Specifically, CORE’s 2009 general ledger reflected
    $12,641 in personnel costs, but the associated payroll documentation totaled $16,103.
    Similarly, CORE’s 2010 general ledger reflected $17,885 in expenses, but the associated
    payroll documentation totaled $21,654. The Executive Director was initially unable to
    explain these discrepancies. However, immediately prior to the issuance of the draft
    report, the Executive Director provided documentation supporting that the discrepancies
    identified in CORE’s 2009 general ledger resulted from the salary of two individuals
    being recorded under a separate grant awarded by another Federal agency, with only a
    portion of the benefits associated with those two payroll transactions being recorded
    under NASA’s grant. While we believe that similar circumstances may also explain the
    discrepancies identified in CORE’s 2010 general ledger, we received no supporting
    documentation to confirm that this was the case. As a result, while we no longer take
    6
        The Federal Audit Clearinghouse disseminates audit information, supports OMB oversight and
        assessment of Federal audit requirements, assists Federal oversight agencies in obtaining A-133 data, and
        helps minimize the reporting burden of complying with A-133 audit requirements.
    7
        The Single Audit was not complete as of March 2012.



4                                                                                         REPORT NO. IG-12-018
RESULTS



  issue with the 2009 discrepancies, the 2010 discrepancies remain of concern. Because
  CORE prepared its financial reports based on its general ledgers, these reports also
  understated CORE’s personnel costs reported to NASA.

  Grant Drawdowns. 8 The Grant Handbook establishes the procedures by which NASA
  makes payments to grantees. Pursuant to the Handbook, grantees should draw down the
  minimum funds needed to cover expenditures. In addition, they are required to invest
  any funds that exceed expenses in an interest bearing account and remit any interest over
  $250 to the Department of Health and Human Services’ Payment Management System
  (PMS) for return to the Treasury.

  For the two grants reviewed, NASA disbursed a total of $2 million. We compared
  drawdowns with grant expenditures and found that CORE generally based its drawdowns
  on the expenditures reflected in its general ledger and made drawdowns in accordance
  with the requirements of the Grant Handbook (see Table 2 for details). We identified one
  instance in which CORE withdrew $3,925 in excess of expenditures and did not invest
  the excess funds in an interest bearing account. However, because this amount would not
  have generated more than $250 in interest over the life of the grant, there was no loss to
  the Government due to CORE’s action.

                               Table 2. Philadelphia CORE Drawdowns

                                Amount of          Grant Expenditures         Expenditures in
                              Drawdown per               per the                 Excess of
         Grant Award              PMS               General Ledgers             Drawdown
         NNX09AQ33G             $ 465,900              $ 616,201                  $150,301
                                   465,900                311,674                  (154,226)
                                    68,200                 90,760                    22,560
               Grant total      $1,000,000             $1,018,635                 $ 18,635

         NNX10AH59G             $ 471,900              $ 878,916                  $407,016
                                   373,925                173,620                  (200,305)
                                   116,491                   3,123                 (113,368)
                                    37,684                     301                  (37,383)
               Grant total      $1,000,000             $1,055,960                 $ 55,957
  Source: PMS and CORE’s general ledgers




  8
      The term “draw down” refers to the action in which the grantee withdraws funds from the U.S.
      Department of Health and Human Services’ Payment Management System, which NASA and other
      Federal agencies use.



REPORT NO. IG-12-018                                                                                 5
                                                                                            RESULTS



    Grant Expenditures. To determine the accuracy and allowability of costs charged to the
    grants, we reviewed a sample of CORE’s expenditures, including personnel expenditures
    for CORE staff working on the grants; non-personnel expenditures such as rent and
    supplies; and scholarship payments. In total, we reviewed $594,833 in grant transactions,
    or 30 percent of the total amount expended for the two grants. Of that amount, we
    questioned $216,920, as discussed below and shown in Appendix B.

    Personnel Expenditures. OMB Circular A-122, “Cost Principles for Non-Profit
    Organizations,” August 31, 2005, states that charges to awards for salaries and wages will
    be based on documented payrolls approved by a responsible official of the organization
    that reflect the distribution of activity of each employee whose compensation is charged
    to awards. Each report must account for the total activity for which employees are
    compensated in fulfillment of their obligations to the organization. A responsible
    supervisory official having first-hand knowledge of the activities performed by the
    employee must sign the reports.

    We tested 14 personnel transactions totaling $30,526 (out of a total of $156,409) for
    compliance with OMB requirements. We found that:

       •   CORE employees did not prepare time and attendance reports consistently
           documenting the total number of hours worked each day;

       •   signatures of both the preparer and the responsible supervisory official were not
           consistently provided; and

       •   although the reports described specific work activities, they did not identify the
           grant to which those activities applied.

    In light of the deficiencies identified in our sample, we asked the Executive Director
    whether there was additional documentation to support the personnel expenditures CORE
    charged to the NASA grants. The Executive Director advised us that she believed the
    time and attendance reports were adequate and that she did not have any other supporting
    documentation. Because we found the time and attendance reports deficient, we question
    the $156,409 in total personnel expenditures charged to the grants.

    Non-Personnel Expenditures. We reviewed 110 non-personnel transactions totaling
    $564,307, or 28 percent of total expenditures for the two grants reviewed. These
    transactions included payments for computer support/maintenance services, rent, office
    supplies, and contractor expenses. We compared the transactions with the NASA-
    approved budget and traced them to supporting documentation to determine whether they
    were properly authorized, classified, and supported.

    We found CORE inappropriately charged $58,000 in expenditures for computer
    support/maintenance services that were not allocable to the grants, and $2,760 in
    unallowable expenditures for items such as duplicate payroll, bank fees, and late fees.



6                                                                          REPORT NO. IG-12-018
RESULTS



  See Table 3 for a complete list of the $60,511 in unallocable or unallowable costs that we
  identified.

                            Table 3. Questioned Costs to the NASA Grants *

                                                              Number of
      Type of Cost                                           Transactions          Questioned Amount

      Computer support/maintenance
                                                                     1                   $43,000
      (2009)
      Computer support/maintenance
                                                                     1                    15,000
      (2010)
      Duplicate payroll                                              1                     1,036
      Late fees                                                      3                      465
      Sales tax                                                      5                      361
      Bank fees                                                      9                      322
      Vendor invoice calculation errors                              3                      169
      Duplicate storage fees                                         1                      158
                                                  Total             24                   $60,511
      * Excludes unsupported personnel costs previously discussed in the report.

  Source: CORE’s 2009 and 2010 general ledgers


  Charges for late fees, sales tax, and bank fees are unallowable expenses in accordance
  with both OMB Circular A-122 and the direction provided to CORE by the NASA grant
  officer. Further, the computer support/maintenance fees of $43,000 are not allocable to
  the NASA awards, as they related to a contract for “continuing” services that CORE
  entered into on May 19, 2009, more than 90 days before NASA awarded the 2009 grant
  to CORE. 9,10 When we asked the Executive Director about this charge, she indicated the
  expenses should have been charged to a Department of Education grant rather than the
  NASA grant. In October 2011, CORE retroactively adjusted its general ledger relating to
  this entry.



  9
      An allocable cost, according to OMB Circular A-122, is cost that can be allocated as a particular cost
      objective, such as a grant, contract, project, service, or other activity, in accordance with the relative
      benefits received. A cost is allocable to a Federal award if it is treated consistently with other costs
      incurred for the same purpose in like circumstances. Further, any cost allocable to a particular award or
      other cost objective under these principles may not be shifted to other Federal awards to overcome
      funding deficiencies or to avoid restrictions imposed by law or by the terms of the award.
  10
       We also noted that CORE did not record this expense in its general ledger until September 1, 2009,
       almost 3 months after paying for the services.



REPORT NO. IG-12-018                                                                                               7
                                                                                        RESULTS



    For the 2010 award, NASA was again charged for computer support/maintenance, which
    was $30,000. However, according to the 2010 grant budget, this cost should have been
    split equally between NASA and the Department of Education. The Executive Director
    could not explain why this expense was charged only to NASA. Accordingly, we
    question $15,000 of the charge as unallocable.

    Finally, we noted that in December 2011 CORE made three additional retroactive
    adjustments to its accounting records to apply expenses for scholarship awards totaling
    $24,500 to the NASA grant. The Executive Director subsequently advised that additional
    adjustments were made, amounting to a grand total of $43,000 in retroactive entries to the
    general ledger. Because these adjustments and the $43,000 adjustment discussed above
    were made after we concluded our fieldwork in that area, we were not able to determine
    whether they were appropriate or supported by adequate documentation. However, we
    are concerned that CORE made these adjustments without NASA’s knowledge and after
    the 2009 grant had been closed. Moreover, because CORE’s Federal Financial Reports
    reflect the original entries and we have not reviewed the legitimacy of the retroactive
    adjustments, we cannot be certain that the filed reports accurately reflect the NASA grant
    activity.

    Scholarship Awards. CORE awarded a total of $1.8 million in scholarships using
    NASA grant funds. CORE paid the scholarships directly to the Pennsylvania colleges
    and universities attended by the student recipients. We reviewed scholarship payments
    issued to six educational institutions totaling $430,975 and compared the amounts
    recorded in CORE’s general ledgers with the amounts issued. In addition, we reviewed
    the individual student scholarship awards obtained from CORE’s scholarship system and
    compared them with the amounts issued. We found that CORE had adequate
    documentation to support the payments and that data in the scholarship system aligned
    with the transactions included in the general ledgers.


Budget Management and Control

    According to the Grant Handbook, the budget plan is the financial expression of the
    project or program as approved during the award process. Although NASA assumes no
    responsibility for budget overruns, recipients may spend grant funds without strict
    adherence to individual allocations within proposed budgets, except when they relate to
    the acquisition of property, awarding of subcontracts, or certain revisions to budget and
    program plans. In addition, NASA may, but is not required to, restrict a grantee’s ability
    to transfer funds among direct cost categories or programs, functions, and activities for
    awards that exceed $100,000 when the cumulative amount of such transfers exceeds or is
    expected to exceed 10 percent of the total NASA-approved budget. NASA did not place
    any such restrictions on CORE.

    As we noted in our September 2011 report reviewing NASA’s overall grant management,
    allowing grant recipients such broad discretion to deviate from approved budgets in our


8                                                                         REPORT NO. IG-12-018
RESULTS



  view increases the risk that they may incur unauthorized or unallowable costs or
  expenditures unrelated to the purpose of the grant. In this audit, we examined the extent
  to which CORE adhered to the NASA-approved budgets by comparing the amounts
  CORE expended in each general ledger category with the approved budgets.

  We did not identify any instances in which CORE failed to conform to the requirements
  of the Grant Handbook. Nevertheless, we are concerned about several instances in which
  CORE deviated from the approved budget or otherwise failed to comply with direction
  from NASA. First, for the reasons discussed above, we question $43,000 and $15,000 in
  computer support and maintenance expenses CORE charged to the NASA grants in 2009
  and 2010 respectively. Second, the NASA grant officer disapproved six items totaling
  $32,765 in CORE’s proposed 2009 budget and one item in CORE’s proposed 2010
  budget and instructed CORE to reallocate these items to other cost categories. However,
  we found items recorded in CORE’s general ledgers in the initial, disallowed categories.
  Finally, we identified several expenditures in the general ledger that exceeded the
  budgeted amount approved by NASA, which CORE covered by tapping into other
  approved cost categories. See Tables 4 and 5 for more details.




REPORT NO. IG-12-018                                                                          9
                                                                                                        RESULTS




                         Table 4. CORE Budget and Expenses for the 2009 Grant

                                       Approved Grant         General Ledger         Expenditure in
          Expenditure Category             Budget              Expenditures         Excess of Budget
      Scholarship awards                  $ 885,110                 $ 886,000               $     890
      Personnel                               53,550                   51,251                   (2,299)
      Scholarship system                      21,500                   43,000                21,500
       software & support
      Office supplies                         19,250                     1,380              (17,870)
      Office equipment                          2,700                    3,768                  1,068
      Publishing & printing                     1,690                       0                   (1,690)
      Postage & delivery                        1,800                     968                    (832)
      Telephone, fax, & Internet                  750                     841                      91
      Subscriptions                               450                     470                      20
      Travel                                    1,200                     168                   (1,032)
      Systems development                     12,000                        0               (12,000)
      Fiscal management,                            0                  15,357                15,357
        customer services*
      Rent*                                         0                  12,633                12,633
      Insurance*                                    0                    1,576                  1,576
      Storage*                                      0                     975                     975
      Bank fees*                                    0                     248                     248
                               Total      $1,000,000                $1,018,635             $18,635
      * As previously discussed, these items were in the CORE proposed budget; however, the NASA Budget
        Memorandum identified these items as unapproved and NASA directed CORE to reallocate them to
        other cost categories.
     Source: NASA grant award file and CORE’s 2009 general ledger




10                                                                                  REPORT NO. IG-12-018
RESULTS




                     Table 5. CORE Budget and Expenses for the 2010 Grant

                                    Approved         General Ledger            Amount in
            Cost Category            Budget           Expenditures          Excess of Budget
   Scholarship awards               $ 860,465           $ 894,900               $34,435
   Personnel                           100,000            105,157                  5,157
   Scholarship system                   15,000             30,000                 15,000
    software & support
   Rent                                 10,000             10,992                    992
   Development officer,                  7,500               7,620                   120
    consultant
   Office supplies                       2,000               2,028                    28
   Telephone, fax, & Internet            2,000               2,744                   744
   Postage & delivery                    1,000               1,018                    18
   Storage                                 960                   316                (644)
   Subscriptions                           750                   898                 148
   Travel                                  125                   126                   1
   Bank fees*                              200                   161                 (39)
                            Total   $1,000,000         $1,055,957               $55,957
   * The NASA Budget Memorandum for the 2010 grant award identified bank fees as unapproved in
     the proposed budget. The grantee was directed to reallocate the bank fees to another cost
     category.
  Source: NASA grant award file and CORE’s 2010 general ledger


   In our September 2011 report, we recommended that the Assistant Administrator for
   Procurement revise the Grant Handbook to require a minimum threshold for all grantee
   budget deviations (excluding categories already requiring approval) and that technical
   officers approve budget deviations in excess of such threshold prior to the expenditure of
   grant funds. The Assistant Administrator for Procurement concurred with our
   recommendation and proposed corrective action. Accordingly, we are not making a
   recommendation concerning this issue in this report.


Grant Reporting

   The Grant Handbook requires grantees to submit quarterly and final Federal Financial
   Reports and final performance and inventory reports to NASA. The Federal Financial
   Reports show grantees’ expenditures and drawdowns for the reporting period.
   Performance reports provide information on the progress of the work effort, and
   inventory reports document NASA-provided equipment and property valued at more than
   $5,000 and equipment and property purchased by the grantee for $1,000 or more.



REPORT NO. IG-12-018                                                                             11
                                                                                          RESULTS



     Financial Reports. The Grant Handbook requires grantees to submit quarterly Federal
     Financial Reports to PMS following the end of each fiscal quarter (December 31,
     March 31, June 30, and September 30). For the 2009 award, CORE’s quarterly reports
     were due 15 days after the end of the quarter. For the 2010 award, NASA changed the
     reporting requirements so that the quarterly reports were due within 30 working days of
     the end of the quarter. Grantees are required to report expenditures and drawdowns
     online for each calendar quarter of the award period. Grantees are also required to submit
     a final Federal Financial Report within 90 days of the award’s completion date.
     According to OMB Circular A-110, Federal agencies are required to use Federal
     Financial Reports to monitor cash advanced to recipients and to obtain disbursement
     information.

     We analyzed the quarterly and final Federal Financial Reports for the two grants we
     reviewed. As shown in Table 6, we found that the majority of CORE’s Federal Financial
     Reports were late or not submitted at all. For the 2009 grant, three quarterly reports were
     never submitted and the fourth was 46 days late. For the 2010 grant, one quarterly report
     and the final report were never submitted and one quarterly report was 23 days late.
     CORE’s Executive Director stated that the first report for the 2009 grant was not
     submitted because she could not access PMS and did not withdraw any grant funds
     during that period. However, the Grant Handbook requires reporting even when no funds
     have been withdrawn. The Executive Director said the other 2009 reports were not
     submitted because she inadvertently failed to complete a step in the submission process
     requiring her to certify the reports’ accuracy. The Executive Director acknowledged
     missing one quarterly report for the 2010 grant. She said she did not submit the final
     reports because NASA had disabled the reporting functionality following the close of the
     grant period. However, as previously mentioned, the grant award documents and the
     Grant Handbook allowed the recipient 90 days after award completion to submit the
     required reports.




12                                                                          REPORT NO. IG-12-018
RESULTS




                              Table 6. Timeliness of CORE Financial Reports

       Number      Report Period Ending              Due Date         Date Submitted        Days Late

          1        December 31, 2009                  1/25/10          not submitted             —
          2        March 31, 2010                     4/21/10          not submitted             —
          3        June 30, 2010                      7/23/10          not submitted             —
          4        September 30, 2010                10/22/10            12/29/10                46
          5        2009 Award – Final Report         12/29/10            12/15/10                0
          6        December 31, 2010                  2/15/11             2/9/11                 0
          7        March 31, 2011                     5/12/11          not submitted             —
          8        June 30, 2011                      8/12/11             9/15/11                23
          9        September 30, 2011                11/16/11            10/26/11                0
         10        2010 Award – Final Report         12/29/11          not submitted             —
  Source: Grant Handbook requirements for Federal Financial Reports; CORE’s submitted reports


  According to PMS support staff, the system should suspend a grantee’s account when a
  report is not received within 90 days of the reporting deadline. However, this control was
  not entirely effective for the CORE grants and CORE was able to continue withdrawing
  funds despite having failed to submit the required reports. According to PMS officials,
  the system was corrected in September 2011.

  NASA policy requires that the Finance Office of the NASA Shared Services Center
  (NSSC) use PMS and the quarterly Federal Financial Reports to monitor grantees’
  drawdown activity and to ensure that the timing and amount of drawdowns are as close as
  administratively feasible to actual disbursements. 11 However, we found that NSSC does
  not consistently review the timeliness or accuracy of NASA grantees’ Federal Financial
  Reports, instead relying on PMS to oversee the submission of the reports and suspend
  accounts as appropriate. In this case, this complete reliance on PMS resulted in a
  noncompliant grantee repeatedly receiving drawdowns of NASA grant funds.

  Performance Reports. The Grant Handbook and the terms of each of the grants we
  reviewed required CORE to submit annual performance reports to NASA 60 days prior to
  the grant anniversary date and a final performance report no later than 90 days after the
  completion of each grant.

  Both CORE grants had a 1-year period of performance, so only final reports were
  required. In both instances, CORE submitted timely final reports.



  11
       NPR 9680.1, “NASA’s Management of Grants and Cooperative Agreements,” October 31, 2008.



REPORT NO. IG-12-018                                                                                    13
                                                                                                    RESULTS



     Inventory Reports. According to the grant award documents and the Grant Handbook,
     CORE was required to submit final inventory reports to NASA 60 days after the
     completion of each grant. However, CORE did not submit inventory reports for either
     grant. According to the Executive Director, she did not file the reports because she was
     not able to identify the individual at NASA to which the reports needed to be submitted.
     NASA closed out the 2009 grant and is in the process of closing out the 2010 grant in the
     absence of these reports.

     According to a 2009 NSSC memorandum, NSSC’s closeout process will no longer
     require inventory reports when it is clear that no Government inventory was provided to
     the grantee. However, NASA has not updated the Grant Handbook to reflect this change.


Other Matters of Interest

     During the course of our review, we learned that the grantee was using NASA’s acronym
     and insignia on its public website in a manner inconsistent with applicable laws and
     regulations.

     Image from CORE’s Webpage




     Source: CORE’s S2P2 webpage as of
     February 24, 2012


     The National Aeronautics and Space Act of 1958 provides that no person may knowingly
     use the letters “NASA” as a business name in a manner reasonably calculated to convey
     the impression that the business has some connection with, endorsement of, or
     authorization from NASA that does not exist or in connection with any product or service
     being offered or made available to the public that conveys the impression that NASA
     authorizes, supports, or endorses the product or service. 12 In addition, Federal
     regulations limit the use of the NASA insignia to certain specified purposes and prohibit
     other uses of the insignia without the express approval of NASA. 13 CORE’s use of the
     insignia did not fall into any of the authorized categories, and CORE did not have
     approval from NASA to use its name or insignia on CORE’s website.

     The CORE Executive Director told us she was not aware that CORE’s use of the NASA
     name and insignia on the website was inappropriate, and the NASA technical officer

     12
          Public Law 85-568, “National Aeronautics and Space Act of 1958,” July 29, 1958.
     13
          14 C.F.R. §1221.110.



14                                                                                      REPORT NO. IG-12-018
RESULTS



  responsible for oversight of the CORE grant said she was not aware of the legal
  restrictions on the use of this information. 14 Once we notified the grantee of the
  restrictions, the grantee removed the NASA reference and insignia from its website.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. We recommended that the Assistant Administrator for Procurement
strengthen policies and procedures to ensure that grantees obtain A-133 Single Audits or
program-specific audits when they expend more than $500,000 in Federal awards.

  Management’s Response. The Assistant Administrator for Procurement concurred,
  stating that NSSC implemented procedures and documented them in policy dated April 6,
  2012. NSSC obtains quarterly reports from NASA’s accounting system to identify
  recipients with drawdowns equal to or greater than $500,000 for the fiscal year. Once
  identified, NSSC notifies recipients of the OMB Circular A-133 Single Audit
  requirement. NSSC also revised its standard award letter to remind recipients of this
  requirement.

  Evaluation of Management’s Response. Notifying NASA recipients of the A-133
  Single Audit requirement when they have drawdowns that are equal to or greater than
  $500,000 for the fiscal year is responsive to our recommendation. Therefore, we
  consider the recommendation resolved and will close it upon receipt and verification of
  supporting documentation.

Recommendation 2. We recommended that the Assistant Administrator for Procurement
update the Grant Handbook to reflect current practice regarding inventory reports.

  Management’s Response. The Assistant Administrator for Procurement agreed that the
  Grant Handbook should reflect current practice, but stated that by issuing the 2009
  memorandum NSSC did not intend to waive the requirement for a final property
  inventory report. Accordingly, the NSSC memorandum was rescinded on July 2, 2012,
  and the Grant Handbook accurately reflects current practice.

  Evaluation of Management’s Response. Management’s action is responsive to our
  recommendation. Therefore, we consider the recommendation resolved and will close it
  upon receipt and verification of supporting documentation.

Recommendation 3. We recommended that the Assistant Administrator for Procurement
work with the Associate Administrator for Communications to clearly delineate the


  14
       The only discussion of use of the NASA name or logo in the Grant Handbook is a requirement that
       grantees that disseminate research produced using NASA funds include in their reports an
       acknowledgement of NASA’s support and the grant number.



REPORT NO. IG-12-018                                                                                     15
                                                                                          RESULTS



requirements surrounding the use of NASA’s logo and insignia in the Grant Handbook and
on award documentation.

     Management’s Response. The Assistant Administrator for Procurement concurred,
     stating that a new grant and cooperative agreement provision for the use of the NASA
     seal, insignia, logo, program identifiers, or flags will be added to the Grant Handbook.
     The Assistant Administrator also stated that NSSC will work with the Associate
     Administrator for Communications to develop formal written procedures for review of
     requests to use NASA’s seal, insignia, logo, program identifiers, or flags.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive to our recommendation. Therefore, we consider the recommendation resolved
     and will close it upon receipt and verification of supporting documentation.

Recommendation 4. We recommended that the NSSC Executive Director, in conjunction
with the Associate Administrator for Education, ensure that CORE remedies the $156,409 in
unsupported payroll expenditures.

     Management’s Response. The NSSC Executive Director concurred, stating that by
     July 31, 2012, NSSC will request that the Office of Naval Research conduct an incurred
     cost audit on these expenditures and will seek remedy from CORE as appropriate within
     60 days of receipt of the audit report.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive to our recommendation. Therefore, we consider the recommendation resolved
     and will close it upon receipt of supporting documentation.

Recommendation 5. We recommended that the NSSC Executive Director, in conjunction
with the Associate Administrator for Education, ensure that CORE remedies the $60,511 in
unallocable or unallowable expenditures.

     Management’s Response. The NSSC Executive Director concurred, stating that by
     July 31, 2012, NSSC will request that the Office of Naval Research conduct an incurred
     cost audit on these expenditures and will seek remedy from CORE as appropriate within
     60 days of receipt of the audit report.

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive to our recommendation. Therefore, we consider the recommendation resolved
     and will close it upon receipt of supporting documentation.




16                                                                          REPORT NO. IG-12-018
RESULTS



Recommendation 6. We recommended that the NSSC Executive Director, in conjunction
with the Associate Administrator for Education, work with CORE to verify that the
expenditures charged to the NASA grants that CORE claims should have been charged to
Department of Education grants were not charged to both grants.

  Management’s Response. The NSSC Executive Director concurred, stating that by
  July 31, 2012, NSSC will request the Office of Naval Research to conduct an incurred
  cost audit to verify that the expenditures were charged to the appropriate grants and will
  seek remedy from CORE as appropriate within 60 days of receipt of the audit report.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive to our recommendation. Therefore, we consider the recommendation resolved
  and will close it upon receipt of supporting documentation.

Recommendation 7. We recommended that the NSSC Executive Director, in conjunction
with the Associate Administrator for Education, ensure that CORE submits all required
reports for the 2009 and 2010 grants.

  Management’s Response. The NSSC Executive Director partially concurred, stating
  that the Department of Health and Human Services’ Payment Management System does
  not allow grantees to submit late quarterly Federal Financial Reports. Instead, grantees
  must reflect financial information from late quarterly reports on subsequent reports. The
  Executive Director stated that NSSC will request that CORE submit the final inventory
  reports for each of the two audited grants.

  Evaluation of Management’s Response. We consider the proposed action responsive to
  our recommendation. Therefore, we consider the recommendation resolved and will
  close it upon receipt and verification of supporting documentation.

Recommendation 8. We recommended that prior to awarding any future grants to CORE,
the NSSC Executive Director and the Associate Administrator for Education ensure that
CORE has strengthened and formally documented its internal controls to ensure compliance
with NASA and OMB requirements.

  Management’s Response. The NSSC Executive Director concurred, stating that NSSC
  will designate CORE as requiring additional special conditions per the Grant Handbook
  and request that CORE revise its internal controls to address OMB Circulars and Grant
  Handbook Financial Management requirements. The Executive Director added that
  NSSC will review CORE’s revised controls before awarding any new grants to the
  organization.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive to our recommendation. Therefore, we consider the recommendation resolved
  and will close it upon receipt and verification of supporting documentation.




REPORT NO. IG-12-018                                                                           17
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from October 2011 through June 2012 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  Our overall audit objective was to determine whether NASA’s grant funds were being
  used for their intended purpose and whether the Agency was compliant with established
  laws, regulations, and NASA-specific requirements in its administration and management
  of the grants. To accomplish our objective, we interviewed key personnel at NSSC and
  at CORE involved in the grant administration, management, and award processes. We
  also identified and reviewed relevant Federal laws and regulations and NASA policies,
  procedures, and requirements. The methodology we used for the review is described
  below.

  Grant Selection. We judgmentally selected the two grants awarded to CORE for
  substantive testing based on the dollar value and the number of supplements awarded.
  Both grants were funded as a result of congressional earmarks and were awarded by
  NSSC.

  Grant Award File Documentation. We reviewed grant award documentation including
  proposal, budget, technical review reports, and summary financial reporting
  documentation. We interviewed NASA grant officers and the NASA technical officer
  responsible for the CORE grants.

  Grantee Site Visits. We visited the grantee’s location in Philadelphia, Pennsylvania.
  We interviewed grantee officials and performed the substantive transaction testing
  necessary to validate whether NASA grant funds were used for their intended purpose
  while assessing the sufficiency of grantee performance.

  Testing Conducted. We tested compliance with what we considered the most important
  conditions of the grant. Unless otherwise stated in our report, the criteria we audited
  against included Federal requirements, the Grant Handbook, and the terms and conditions
  of the grants. In conducting our audit, we employed judgmental sampling designed to
  obtain broad exposure to numerous facets of the grants reviewed, such as dollar amounts
  or expenditure category. This non-statistical sample design does not allow projection of
  the test results to the universes from which the samples were selected.



REPORT NO. IG-12-018                                                                          19
                                                                                       APPENDIX A



     Specifically, we tested the grantee’s:

        •   Program Performance and Accomplishments to determine whether the grantee
            met or is capable of meeting the grant objectives and whether the grantee
            collected data and developed performance measures to assess accomplishment of
            the intended objectives.

        •   Accounting and Internal Controls to determine whether the grantee had
            sufficient accounting and internal controls to identify and report expenditures and
            reimbursements. This included testing:

                o Grant Drawdowns to determine whether grant drawdowns were
                  adequately supported and whether the grantee was managing grant
                  receipts in accordance with Federal requirements; and

                o Grant Expenditures to determine the accuracy and allowability of costs
                  charged to the grant.

        •   Budget Management and Control to determine the amounts budgeted and the
            actual costs for each approved cost category and to determine whether the grantee
            deviated from the approved budget and, if so, whether the grantee received the
            necessary approval.

        •   Grant Reporting to determine whether the required reports were submitted on
            time and accurately reflected grant activity.

     We also performed limited work and confirmed that CORE did not generate or receive
     program income, did not have any property or equipment that was reportable to NASA,
     was not required to contribute any local matching funds, did not have any subgrantees to
     monitor, and did not have any indirect costs associated with the grants we reviewed. We
     therefore performed no testing in these areas.

     We identified and reviewed the following criteria as applicable to our audit objectives:

     Federal Laws, Regulations, Policies, and Requirements

     Public Law 111-8, ‘‘Omnibus Appropriations Act, 2009,’’ March 11, 2009

     Public Law 111-116, “Consolidated Appropriations Act, 2010,’’ December 16, 2009

     Code of Federal Regulations (C.F.R.), Title 2, Part 215, “Uniform Administrative
     Requirements for Grants and Agreements with Institutions of Higher Education,
     Hospitals and Other Non-Profit Organizations (OMB Circular A-110),” January 1, 2006

     2 C.F.R. Part 230, “Cost Principles for Non-Profit Organizations (OMB Circular
     A-122),” August 31, 2005



20                                                                          REPORT NO. IG-12-018
APPENDIX A



  14 C.F.R. Part 1260, “Grants and Cooperative Agreements,” Subpart A, October 19,
  2000, with subsequent amendments

  14 C.F.R. Part 1260, Subpart B, “Uniform Administrative Requirements for Grants and
  Cooperative Agreements with Institutions of Higher Education, Hospitals, and Other
  Non-Profit Organizations,” October 19, 2000, with subsequent amendments

  Title 31, United States Code, Chapter 63 (31 U.S.C. 63), “Using Procurement Contracts
  and Grant and Cooperative Agreements,” January 7, 2011

  OMB Circular A-133, “Audits of States, Local Governments, and Non-Profit
  Organizations,” June 26, 2007

  NASA Policies, Procedures, and Circulars

  NASA Policy Directive 1200.1E, “NASA Internal Controls,” July 21, 2008

  NASA Procedural Requirements (NPR) 5800.1, “Grant and Cooperative Agreement
  Handbook,” Section A, June 13, 2008 and Section B, April 20, 2007

  NPR 9010.3, “Financial Management Internal Control,” September 30, 2008

  NPR 9680.1, “NASA’s Management of Grants and Cooperative Agreements,” October
  31, 2008

  Grant Information Circular (GIC) 05-03, “Additional Guidance Related to the Processing
  of Unsolicited Proposals, Successor Proposals and Congressional Interest Items
  (Earmarks),” April 7, 2005

  GIC 08-01, “Ensuring Only Allowable, Reasonable, and Necessary Costs in the Award of
  Grants and Cooperative Agreements,” February 14, 2008

  GIC 09-02, “Guidance On Processing Congressionally Directed Items (Earmarks) for
  Fiscal Year (FY) 2009,” July 23, 2009

  GIC 09-04, “Substitution of Standard Form (SF) 425 for Standard Form (SF) 272: Class
  Deviation from the Requirements at C.F.R. 1260.26 and Exhibits D & G of 14 C.F.R.
  Part 1260,” October 27, 2009

  GIC 11-01, “Implementation of the Federal Funding Accountability and Transparency
  Act (FFATA) of 2006,” January 24, 2011

  GIC 11-02, “Requirements for Non-Competitive Agency Grant and Cooperative
  Agreement Actions, Exclusive of those Actions Prescribed by 14 C.F.R. 1260.17,
  Evaluation and Selection of Unsolicited Proposals,” May 24, 2011




REPORT NO. IG-12-018                                                                       21
                                                                                        APPENDIX A



     Use of Computer-Processed Data. We relied on NASA computer-processed data to
     determine the NASA grants universe and to provide financial data. While we obtained
     grant drawdown data and the Federal Financial Reports used during the audit from the
     Department of Health and Human Services’ PMS, we did not perform any substantive
     testing of PMS to validate the completeness or accuracy of the data. As a result, we
     placed limited reliance on the accuracy of the data obtained from PMS. Further, we also
     placed limited reliance on the information obtained from the grantee’s financial system to
     perform detailed transaction testing on the grantee’s financial records.


Review of Internal Controls

     We reviewed internal controls for the grantee’s administration and management of grants,
     including the adequacy of CORE’s policies and procedures. The control weaknesses we
     identified are discussed in this report. Our recommendations, if implemented, should
     correct the identified control weaknesses.


Prior Coverage

     During the last 6 years, NASA and the GAO have issued the following reports and
     testimony that are of particular relevance to the subject of this report. Unrestricted
     reports can be accessed over the Internet at http://oig.nasa.gov/audits/reports/FY12/
     (NASA OIG) and http://www.gao.gov (GAO).

     NASA Office of Inspector General

     “NASA’s Grant Administration and Management” (IG-11-026, September 12, 2011)

     “Audit of NASA’s Recovery Act Procurement Actions at Johnson Space Center,
     Goddard Space Flight Center, Langley Research Center, and Ames Research Center”
     (IG-10-017, July 27, 2010)

     “Final Memorandum on Review of Wheeling Jesuit University Cost Proposals”
     (IG-09-020-Redacted, August 3, 2009)

     “Final Memorandum on Audit of NASA Education and Training Grants” (IG-07-029-R,
     September 18, 2007)

     “Audit of NASA’s Management and Funding of Fiscal Year 2006 Congressional
     Earmarks” (IG-07-028, August 9, 2007)

     “Final Memorandum Regarding Duplicate Grant Funding,” August 10, 2006
     (http://oig.nasa.gov/audits/reports/FY06/A-06-006.pdf)




22                                                                           REPORT NO. IG-12-018
APPENDIX A



  Government Accountability Office

  “Federal Grants – Improvements Needed in Oversight and Accountability Processes”
  (GAO-11-773T, June 23, 2011)

  “Opportunities to Reduce Potential Duplication in Government Programs, Save Tax
  Dollars, and Enhance Revenue” (GAO-11-318SP, March 2011)

  “Grants Management – Attention Needed to Address Undisbursed Balances in Expired
  Grant Accounts” (GAO-08-432, August 2008)

  “Grants Management – Grantees’ Concerns with Efforts to Streamline and Simplify
  Processes” (GAO-06-566, July 2006)




REPORT NO. IG-12-018                                                                 23
                                                                                                     APPENDIX B




                                                          TABLE OF QUESTIONED COSTS

     The following table shows the questioned costs identified during our audit and discussed
     in this report (see page 6 for the discussion of unsupported personnel costs; the discussion
     of unallowable non-personnel costs begins on page 6).


       Questioned Costs*                                                              Amount

       Unsupported costs:

        Personnel Costs                                                              $156,409

       Unallocable costs:
        Computer support/maintenance (2009)                                            $43,000
        Computer support/maintenance (2010)                                            $15,000
                                                     Total unallocable costs           $58,000
       Unallowable costs:
        Duplicate Payroll                                                                 1,036
        Late fees                                                                           465
        Sales tax                                                                           361
        Bank fees                                                                           322
        Vendor invoice calculation errors                                                   169
        Duplicate Storage fees                                                              158
                                                    Total unallowable costs             $2,511


                                                                          Total      $216,920
       * Questioned costs are expenditures that are questioned by the OIG because they are an
         alleged violation of legal, regulatory, or contractual requirements; are not supported by
         adequate documentation at the time of the audit; or are unauthorized or unallowable.




24                                                                                      REPORT NO. IG-12-018
APPENDIX C




                       AGENCY COMMENTS




REPORT NO. IG-12-018                     25
              APPENDIX C




26   REPORT NO. IG-12-018
APPENDIX C




REPORT NO. IG-12-018   27
              APPENDIX C




28   REPORT NO. IG-12-018
APPENDIX D




                       GRANTEE COMMENTS




REPORT NO. IG-12-018                      29
              APPENDIX D




30   REPORT NO. IG-12-018
APPENDIX D




REPORT NO. IG-12-018   31
              APPENDIX D




32   REPORT NO. IG-12-018
APPENDIX D




REPORT NO. IG-12-018   33
              APPENDIX D




34   REPORT NO. IG-12-018
APPENDIX D




REPORT NO. IG-12-018   35
              APPENDIX D




36   REPORT NO. IG-12-018
APPENDIX D




REPORT NO. IG-12-018   37
              APPENDIX D




38   REPORT NO. IG-12-018
APPENDIX D




REPORT NO. IG-12-018   39
                                                                                    APPENDIX E




                                                          REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Associate Administrator for Education
     Assistant Administrator for Procurement
     Associate Administrator for Communications
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Ames Research Center
     Executive Director, NASA Shared Services Center

Non-NASA Organizations and Individuals

     Executive Director, Philadelphia College Opportunity Resources for Education
     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Financial Management and Assurance
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




40                                                                      REPORT NO. IG-12-018
Major Contributors to the Report:
   Laura Nicolosi, Director, Mission Support Directorate
   Joseph Shook, Project Manager
   Bobbie Wells, Lead Auditor
   Lynette Westfall, Senior Auditor
   Frank Mazurek, Associate Counsel, Office of Inspector General
   Annette Huffman, Program Assistant




REPORT NO. IG-12-018                                               41
                                                                                        JULY 26, 2012
                                                                       REPORT No. IG-12-018




                                                                                 OFFICE OF AUDITS

                                                                OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY12/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
